Report No. D-2008-043        January 31, 2008




    Identification and Reporting of Improper
   Payments - Refunds from DoD Contractors
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACO                   Administrative Contracting Officer
CLIN                  Contract Line Item Number
DCAA                  Defense Contract Auditing Agency
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
FAR                   Federal Acquisition Regulation
IPRA                  Improper Payments and Recovery Auditing
KBR, Inc.             Kellogg Brown and Root, Incorporated
LOGCAP                Logistics Civilian Augmentation Program
MOCAS                 Mechanization of Contract Administration Services
OMB                   Office of Management and Budget
OUSD(C)/CFO           Office of Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
PBP                   Performance-Based Payment
                             INSPECTOR GENERAL

                            DEPARTMENT OF DEFENSE

                             400 ARMY NAVY DRIVE

                        ARLINGTON, VIRGINIA 22202-4704





                                                                         January 31, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                  (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT:	 Identification and Reporting of Improper Payments - Refunds from DoD
          Contractors (Report No. D-2008-043)


      We are providing this report for information and use. We considered
management comments on a draft report of this report in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (614) 751-1400, ext. 211, or Mr. Curt W. Malthouse at
(614) 751-1400, ext. 230. See Appendix B for the report distribution. The team
members are listed inside the back cover.



                              By direction of the Deputy Inspector General for Auditing:




                                        Patricia A. Marsh, CPA

                                Assistant Inspector General and Director

                                  Defense Financial Auditing Service

               Department of Defense Office of Inspector General
Report No. D-2008-043                                                  January 31, 2008
  (Project No. D2006-D000FJ-0156.000)

           Identification and Reporting of Improper Payments – 

                       Refunds from DoD Contractors 

                                 Executive Summary 

Who Should Read This Report and Why? DoD financial managers and contracting
officials responsible for identifying, researching, and reducing improper payments should
read this report. It discusses ways in which DoD can more accurately identify, report,
and reduce improper payments.

Background. This audit focused on whether refunds received by the Defense Finance
and Accounting Service (DFAS) Columbus from contractors who were paid through its
Mechanization of Contract Administration Services (MOCAS) system were researched
and reported as improper payments when appropriate. The MOCAS system is used by
DFAS Columbus and the Defense Contract Management Agency to administer complex
contracts for the Military Departments and other DoD organizations. During FYs 2005
and 2006, contractors who were paid through MOCAS refunded $1.6 billion to DFAS
Columbus. DFAS Columbus reported to the Office of Under Secretary of Defense
(Comptroller)/Chief Financial Officer that $216.8 million of the MOCAS refunds were
the result of improper payments. It did not report any of the remaining $1.4 billion of
refunds as having resulted from improper payments.

Results. DFAS Columbus did not perform adequate research to determine whether the
MOCAS contractor refunds it received in FYs 2005 and 2006 were the result of improper
payments. We reviewed a judgmental sample of $239.7 million of the $1.4 billion of
refunds from contractors that DFAS Columbus did not include in its improper payment
reporting and concluded that all $239.7 million of refunds in our sample should have
been more adequately researched. DFAS Columbus did not report at least $24 million in
improper payments associated with one of the most substantial refunds because the
Office of Under Secretary of Defense (Comptroller)/Chief Financial Officer and DFAS
Columbus did not have an adequate process in place to fully research the causes of the
refunds DFAS Columbus received. Unless DoD improves its identification and research
process, the Office of Under Secretary of Defense (Comptroller)/Chief Financial Office
and DFAS Columbus will not be able to provide causes for improper payments to DoD
entities so that they can take corrective actions to reduce overpayments. The Office of
Under Secretary of Defense (Comptroller)/Chief Financial Officer and DFAS needed to
establish a process to coordinate with procurement contracting officers, the Defense
Contract Audit Agency, the Defense Contract Management Agency, and other DoD
Components to research contractor refunds in order to identify an accurate baseline of
improper contractor payments. In addition, the Office of Under Secretary of Defense
(Comptroller)/Chief Financial Officer internal controls were not adequate. We identified
an internal control weakness in the identification of improper payments associated with
contractor refunds. (See the Finding section of the report for the detailed
recommendations.)
Management Comments and Audit Response. The Deputy Chief Financial Officer,
Office of Under Secretary of Defense (Comptroller)/Chief Financial Officer agreed with
the intent of our recommendations to establish a process for DFAS to coordinate with
procurement contracting officers, the Defense Contract Audit Agency, the Defense
Contract Management Agency, and other DoD Components to research contractor
refunds to identify reasons for refunds. He stated that DFAS already has a process in
place and that the Office of Under Secretary of Defense (Comptroller)/Chief Financial
Officer was working to improve the existing process and that the process would be
monitored.

The Deputy Chief Financial Officer’s plan to improve the existing process and improve
oversight satisfies the intent of our recommendations. We strongly believe that fully
investigating the causes of refunds and accurately reporting the amounts that are found to
be caused by improper payments are imperative steps in monitoring and working to
reduce the occurrence of improper payments in the Department. The Department needs
to perform better research to identify the systemic problems that cause improper
payments and identify and focus its attention on the weaknesses in its processes that are
resulting in significant refunds. If the systemic problems are not identified, highlighted,
and corrected, Defense contractors will continue to receive significant overpayments that
could have been prevented.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents 


Executive Summary                                                         i


Background                                                                1


Objectives                                                                2


Review of Internal Controls                                               2


Finding 

      Improper Payments Associated with Refunds from Contractors 	        3


Appendixes
      A. Scope and Methodology 	                                         14 

          Prior Coverage                                                 14 

      B. Report Distribution 	                                           16 


Management Comments
      Office of the Under Secretary of Defense/Chief Financial Officer   19 

Background 

    In FY 2002, the President sent Congress an agenda that was focused on
    improving the management and performance of the Federal Government. One
    component of the President’s management agenda was an initiative to improve
    financial performance by reducing improper payments. On August 10, 2006, the
    Office of Management and Budget (OMB) issued OMB Circular A-123,
    Appendix C, “Requirements for Effective Measurement and Remediation of
    Improper Payments,” that defines an improper payment as any payment that
    should not have been made or that was made in an incorrect amount under a
    statutory, contractual, administrative, or other legally applicable requirement.
    Incorrect amounts are overpayments and underpayments (including inappropriate
    denials of payment or service). An improper payment includes any payment that
    was made to an ineligible recipient or for an ineligible service, duplicate
    payments, payments for services not received, and payments that are for the
    incorrect amount. In addition, when an agency’s review of a payment is unable to
    discern whether a payment was proper because of insufficient or lack of
    documentation, the payment must be considered an error. The Circular
    emphasizes the importance of establishing accurate baselines to show progress.

    The Defense Finance and Accounting Service (DFAS) Columbus processes DoD
    contractor payments as part of its accounts payable functional area (formerly
    commercial pay). Contractor payment functions include paying contractors
    through written, long-term contract instruments that require contract
    administration. The contracts are for products and services for DoD Components
    (the Military Services and Defense agencies). The Defense Contract Management
    Agency (DCMA) typically administers the contracts. The contracts tend to be for
    complex, multi-year purchases with high dollar values, such as major weapons
    systems. During FYs 2005 and 2006, contractors who were paid through the
    payment module of DFAS Columbus Mechanization of Contract Administration
    Services (MOCAS) system refunded $1.6 billion by check to DFAS Columbus.
    DFAS Columbus reported to the Office of Under Secretary of Defense
    (Comptroller)/Chief Financial Officer (OUSD[C]/CFO) that $216.8 million of the
    refunds were the result of improper payments. It did not report any of the
    remaining $1.4 billion of refunds as having resulted from improper payments.

    Many of the contracts paid through MOCAS involved contract financing
    payments. Federal Acquisition Regulation (FAR), Part 32 “Contract Financing,”
    September 17, 2007, defines a contract financing payment as “an authorized
    Government disbursement of monies to a contractor prior to acceptance of
    supplies or services by the Government.” Contract financing payments include
    such payments as advance payments, performance-based payments (PBPs),
    progress payments, and interim payments. The FAR Part 32.008, “Notification of
    Overpayment,” states:

           If the contractor notifies the contracting officer of a duplicate contract
           financing or invoice payment or that the Government has otherwise
           overpaid on a contract financing or invoice payment, the contracting
           officer must promptly provide instructions to the contractor, in




                                               1

            coordination with the cognizant payment office, regarding timely
            disposition of the overpayment.

Objectives
     The audit objective was to determine whether DoD adequately reviewed all the
     programs and activities it administered, and identified and reported those that may
     be susceptible to making significant improper payments. We determined whether
     DoD established adequate processes to identify the amount of improper payments
     that caused refunds from DoD contractors paid though the MOCAS system.

Review of Internal Controls
     We identified an internal control weakness for the OUSD(C)/CFO as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
     Procedures,” January 4, 2006. OUSD(C)/CFO did not have adequate internal
     controls in the identification of improper payments associated with contractor
     refunds. Specifically, OUSD(C)/CFO and DFAS did not have a process:

            •	 for DFAS to coordinate with procurement contracting officers, the
               Defense Contract Auditing Agency (DCAA), DCMA, and other DoD
               Components to research contractor refunds to identify reasons for
               refunds;

            •	 to determine whether the refunds resulted from improper payments
               based on reasons identified through coordination with DoD
               Components;

            •	 to monitor DoD Components’ actions to ensure that the cause for each
               refund is determined; and

            •	 to develop solutions and trend information for use in demonstrating
               progress in reducing improper payments associated with refunds.

     Recommendations in this report, if implemented, will improve OUSD(C)/CFO
     procedures for identifying and reporting improper payments associated with
     refunds from contractors. A copy of the report will be provided to the senior
     official responsible for internal controls in the OUSD(C)/CFO.




                                           2

           Improper Payments Associated with
           Refunds from Contractors
           DFAS Columbus did not perform adequate research to determine whether
           the MOCAS contractor refunds it received in FYs 2005 and 2006 were the
           result of improper payments. We reviewed a judgmental sample of
           $239.7 million of the $1.4 billion of refunds from contractors that DFAS
           Columbus did not include in its improper payment reporting and
           concluded that all $239.7 million of refunds in our sample should have
           been more adequately researched. DFAS Columbus did not report at least
           $24 million in improper payments associated with one of the most
           substantial refunds because the OUSD(C)/CFO and DFAS Columbus did
           not have an adequate process in place to fully research the causes of the
           refunds that DFAS Columbus received. Unless DoD improves its
           identification and research process, Defense contractors will continue to
           receive significant overpayments that could have been prevented.


Refunds Reported as Resulting from Improper Payments
    DoD Financial Management Regulation volume 5, chapter 10, “Collections,”
    February 2005, states that there are three types of collections: refunds, receipts,
    and reimbursements. A refund is defined as a payment made in error and
    collected by a disbursing officer. A refund occurs either because DoD issued a
    demand letter to an individual or contractor, or an individual or contractor became
    aware of the error and returned the funds to DoD.

    The DFAS Columbus Debt Management Division processed the MOCAS refunds
    it received from contractors totaling $1.6 billion for FYs 2005 and 2006. DFAS
    Columbus classified $216.8 million of the $1.6 billion as improper payments. We
    selected five of the refunds included in the $216.8 million that DFAS Columbus
    reported to confirm that the DFAS Columbus review was complete and that the
    refunds had resulted from improper payments. The five refunds represented
    67 percent ($146.0 million) of the $216.8 million DFAS Columbus reported.

    We examined MOCAS check collections that contained a reason code for the
    return that stated “funds returned due to contractor or contracting identified
    payment errors.” We verified that these collections were the result of an improper
    payment caused by an error in contract administration and agreed with the
    DFAS Columbus decision to report them as improper payments. Table 1 shows
    the details of the five MOCAS check collections.




                                         3

       Table 1. Sample of Refunded Checks Reported as Improper Payments
                      Amount Refunded to
                                              Reason for Refund Shown        Amount of Refund
                     DoD and Reported as
     Vendor                                     in the Documentation           Attributed to
                     Improper Payment by
                                                       Provided              Improper Payment
                       DFAS Columbus
                                             Overpayment due to
Lockheed Martin            $ 86,541,307.35   liquidation                        $ 86,541,307.35
United Defense                               Invoices paid without
Ground Systems Div           16,232,107.54   recoupment                          16,232,107.54
                                             Over and under liquidation of
BAE Systems                  24,315,356.57   payments                            24,315,356.57
                                             Over and under liquidation of
BAE Systems                   8,116,053.77   payments                             8,116,053.77
BAE Systems                  10,806,825.02   Overpayment on shipment             10,806,825.02
      Totals               $146,011,650.25                                     $146,011,650.25



Refunds Not Reported as Resulting from Improper Payments
       We judgmentally selected and reviewed 23 refunds, valued at $239.7 million,
       from the universe of $1.4 billion of refunds that DFAS Columbus did not report
       as having resulted from improper payments. The review showed that $239.7
       million of the refunds should have been more adequately researched for possible
       inclusion in the improper payment reporting information and that one refund for
       $24 million (BAE Systems) should have been reported as an improper payment.
       DFAS Columbus confirmed an improper payment after they completed further
       research during the audit. After DFAS conducted further research, only two items
       in our sample (payments to the Boeing Company and Raytheon Company)
       contained evidence of adequate research to conclude that they were not improper
       payments. Table 2 shows the details of the 23 refunds.




                                             4

            Table 2. Sample of Refunded Checks Reported as Proper Payments
                            Amount                                                            Insufficient
                                                  Reason for Refund Shown in the
          Vendor           Refunded to                                                      Initial Research
                                                     Documentation Provided
                              DoD                                                              Performed
McDonnell Air &                                Limitation of payments review
Missile Systems            $ 34,105,000.00     discovered excess overbillings               $ 34,105,000.00
The Boeing Company           29,110,378.00     Valid payment                                  29,110,378.00
KBR, Inc. 1                  27,908,679.48     Billed to incorrect task order                 27,908,679.48
BAE Systems                  23,983,614.79     Contract administrative error                  23,983,614.79
Bell Helicopter              19,871,708.15     Refund of overpayment                          19,871,708.15
KBR, Inc.                    17,405,682.27     Billed to incorrect task order                 17,405,682.27
Oshkosh Truck                                  Overpayment discovered during
Corporation                 14,401,210.30      definitization                                 14,401,210.30
Lockheed Martin             13,438,145.92      Decrease in costs in current billing cycle     13,438,145.92
Raytheon Company            11,936,600.00      Tax settlement                                 11,936,600.00
Northrop Grumman            11,613,043.00      Litigation cost settlement                     11,613,043.00
KBR, Inc.                                      Overpayment discovered during
                             6,465,319.00      definitization                                  6,465,319.00
KBR, Inc.                    5,945,748.08      Task order definitized funds de-obligated       5,945,748.08
KBR, Inc.                    4,416,715.30      Task order definitized funds de-obligated       4,416,715.30
The Titan Corporation        3,236,683.17      Contractor timekeeping error                    3,236,683.17
KBR, Inc.                    2,755,290.21      Rate adjustment                                 2,755,290.21
KBR, Inc.                    2,262,157.80      Refund of overpayment                           2,262,157.80
KBR, Inc.                    1,905,080.45      Partial costs                                   1,905,080.45
KBR, Inc.                    1,876,759.40      Partial costs                                   1,876,759.40
KBR, Inc.                                      Overpayment discovered during
                             1,815,191.94      definitization                                  1,815,191.94
KBR, Inc.                                      Overpayment discovered during
                             1,604,629.50      definitization                                  1,604,629.50
KBR, Inc.                    1,386,446.74      Adjustments to line items                       1,386,446.74
KBR, Inc.                    1,158,354.50      Rate adjustment                                 1,158,354.50
KBR, Inc.                    1,075,080.97      Settlement for overbillings                     1,075,080.97
       Totals             $239,677,518.97                                                   $239,677,518.97


                When the audit began, DFAS Columbus did not provide adequate documentation
                to us to show why $239.7 million of payments were refunded. DFAS Columbus
                initial research did not identify the original payments that were refunded. As a
                result, we could not review the payments to opine on the propriety of DoD actions
                taken during the approval of the original payments refunded by the contractors.
                In addition, DFAS had not conducted sufficient research or adequately
                coordinated with DoD Components that could have provided additional
                information to explain the cause of each refund. Except for two refunds from the
                Boeing Company and Raytheon Company, DFAS Columbus personnel reported
                the refunds shown in the table as not resulting from improper payments because
                its preliminary research indicated that the refunds were the result of the actions of
      1
          Kellogg Brown and Root (KBR), Inc.



                                                            5

other DoD Components or errors made by contractors after payments were made.
DFAS Columbus did not have a process in place to coordinate with other DoD
Components to confirm that the amounts may have resulted from improper
payments.

Properly Categorized Refunds
DFAS Columbus properly categorized two of the refunds in our sample as a valid
payment and a tax settlement.

Boeing Company Proper Payment. A $29.1 million refund from The Boeing
Company was the result of a conversion of a contract from progress payments to
PBPs. DCMA personnel stated that progress payments and PBPs cannot exist on
the same contract. They stated that by using a modification, the procurement
contracting officer incorporated the PBPs into the contract and made a one-time
conversion from progress payments to PBPs. DCMA personnel indicated that all
progress payments made as of a given date were refunded at the time the
conversion was made to PBPs. We did not consider this collection to be the result
of an improper payment because the amount paid was proper and remained
unchanged despite the refund shown in the records.

Raytheon Company Property Tax Settlement. DFAS Columbus received a
refund of $11.9 million from Raytheon Company in December 2004. The
research collection voucher provided by DFAS Columbus contained conflicting
information about the refund. One section showed the amount was a “refund on
income tax accruing on multi-government contracts,” while another section
showed that it was a “property tax settlement.” DFAS Columbus did not provide
additional documentation on this collection. On August 9, 2007, OUSD(C)/CFO
personnel provided additional documentation on the refund showing that the
refund was the result of a property tax settlement. We did not consider this
collection to be the result of an improper payment because the amount paid was
proper and remained unchanged despite the refund shown in the records.

Improperly Categorized Refunds
OUSD(C)/CFO and DFAS Columbus personnel agreed that DFAS Columbus
probably should have categorized one refund as an improper payment. The
agreement came after DFAS Columbus completed additional research at our
request during the audit. The additional research clearly showed that
administrative error caused the refund. The refund was on the same contract as
three refunds categorized as improper payments by DFAS in Table 1.

BAE Systems Contract Administrative Error. DFAS Columbus made a
payment to BAE Systems based on the initial PBP schedule that referenced four
contract line item numbers (CLINs). DFAS Columbus personnel stated that the
overpayment occurred because the administrative contracting officer (ACO)
processed a contract modification that referenced eight CLINs for the PBP
schedule, but the ACO did not notify the DFAS Columbus payment office of the

                                    6

change in CLINs. As the contractor submitted invoices for deliveries on the eight
CLINs, DFAS Columbus made payments on only four CLINs, causing an
overpayment of $24 million on the four original CLINs. The amount refunded
was the result of the improper payment caused by a contract administrative error.

DFAS Columbus requested that DCMA personnel provide the DCMA guidance
on when the ACO should notify the payment office of PBP schedule changes.
DCMA personnel indicated that guidance on this topic did not exist in the DCMA
PBP Guidebook. DFAS Columbus personnel stated that they will work with
DCMA to see if this situation can be prevented by adding procedures to the
DCMA PBP Guidebook.

DFAS Columbus personnel stated that problems with PBPs occur when the
procurement contracting officer makes changes to the contract but does not notify
DFAS Columbus. Problems with PBP contracts can be corrected if the
contracting officer notifies DFAS Columbus of changes to line items being
charged. DFAS needed to coordinate with procurement contracting officers,
DCAA, and DCMA to prevent these types of improper payments.

DFAS Columbus identified three additional improper payments on the BAE
contract as being improper payments (see Table 1) and should have completed
research on the entire contract to identify the amount of improper payments.

Insufficient Research Performed to Identify the Cause for Refund
DFAS Columbus did not perform enough initial research to determine the cause
of the refunds and prove that the remaining refunds in our sample were not the
result of improper payments.

Multiple Kellogg Brown and Root, Inc. Refunds. DFAS Columbus did not
report improper payments on multiple refunds received from KBR, Inc., a
contractor performing work for the Army. In December 2001, the Army awarded
a contract to KBR, Inc. to support operations in Southwest Asia (DoD Contract
DAAA09-02-D-0007, December 14, 2001). The Logistics Civilian Augmentation
Program contract (LOGCAP III) had an estimated contract value of $22.7 billion.
DFAS Columbus received $86.3 million in refunds on the contract from
KBR, Inc. during FYs 2005 and 2006.

DFAS Columbus did not report any of the $86.3 million as being improper
payments. We examined documentation related to 14 refunds on the
LOGCAP III contract, totaling $78.0 million. Documentation showed that two
refunds for $45.3 million were the result of overbillings by the contractor because
the contractor billed to the incorrect task order. We obtained documents that
showed that DFAS Columbus did not perform adequate research or coordinate
with DCAA and DCMA to verify the cause as overbilling to support its not
reporting this as an improper payment.

Documentation from DCMA personnel showed that another five refunds for
$20.2 million were the result of overpayments made prior to the definitization of
the contract. The Defense Federal Acquisition Regulation Supplement (DFARS)


                                     7

           Subpart 217.74, “Undefinitized Contract Actions,” May 12, 2006, defines
           definitization as “the agreement on, or determination of, contract terms,
           specifications, and price.” The agreement or determination converts the
           undefinitized contract action to a definitive contract. DFARS defines an
           undefinitized contract action as “any contract action for which the contract terms,
           specifications, or price are not agreed upon before performance is begun under the
           action.” DCMA personnel stated that for three of the refunds, DCMA issued a
           demand letter to collect an overpayment. DCMA personnel provided
           documentation showing that the overpayment was the result of invoices that were
           paid prior to definitization of the task order that was then definitized for an
           amount less than what had already been paid. For the remaining two refunds,
           DCMA personnel stated that the task order was definitized, and funds were
           de-obligated.

           The reasons for the remaining KBR, Inc. refunds are listed in Table 2 and include
           overpayments, rate adjustments, partial costs, adjustments to line items, and
           settlement for overbillings. We met with senior DCAA officials in March 2007 to
           discuss overpayments on the KBR, Inc. contract, and the officials stated that the
           KBR, Inc. financial system was at high risk for billing errors. An Army Audit
           Agency report 2 states “the process of submitting cost proposals to the
           Definitization Office wasn’t done in a timely manner. The current LOGCAP
           contract, DAAA09-02-D-0007, sets a target date for the submission of the
           contractor’s proposal of 45 days after award of the task order.” For the task
           orders in our sample of refunds, KBR, Inc. submitted cost proposals on task
           orders that ranged from 104 to 297 days after the notice to proceed. DCAA was
           still in the process of reviewing many of the LOGCAP contract charges. DFAS
           needed to coordinate with DCAA and DCMA to determine an amount, if any, to
           report as improper payments on the contract.

           Northrop Grumman Litigation Settlement. DFAS Columbus collected a
           refund of $11.6 million from Northrop Grumman that was related to unallowable
           legal costs incurred on contracts. The supporting documentation for the
           collection stated “final payment for all Qui Tam 3 litigation cost plus interest
           pursuant to the memorandum of agreement between DCMA Chicago and
           Northrop Grumman.” On August 9, 2007, OUSD(C)/CFO personnel provided
           additional documentation on the refund showing that $2.1 million of the refund
           was interest on the Qui Tam settlement. The documentation did not identify the
           original payments made for the unallowable costs. Therefore, DFAS did not
           conduct sufficient research to show that the $9.5 million in unallowable litigation
           costs refunded on the contracts were the result of proper payments.

           Titan Corporation Timekeeping Error. One example of a contractor error that
           caused a refund was a $3.2 million overpayment to the Titan Corporation. The
           refund occurred when the ACO at DCMA issued a demand for payment that
2
    Army Audit Agency Report No. A-2004-0438-AML, “Definitization of Task Orders – Audit of Logistics
    Civil Augmentation Program,” August 12, 2004.
3
    Qui Tam is defined as a lawsuit brought by a private citizen (popularly called a “whistle blower”) against
    a person or company who is believed to have violated the law in the performance of a contract with the
    Government or in violation of a Government regulation.

                                                       8

    stated that the contractor’s labor accounting system was inadequate and contained
    a number of significant deficiencies. Other deficiencies cited were that the
    contractor did not comply with timekeeping policy and did not document in the
    timecards the actual time worked. This resulted in an overbilling. When we met
    with DFAS Columbus and DCAA personnel to discuss the refund, they stated that
    because the error was a contractor billing error, the actual payment was proper
    when the payment was made. Senior DCAA personnel also stated that the
    demand for payment and ultimate collection was part of the normal audit
    oversight process of contracts and that the contractor might recover the refund
    later. However, DFAS Columbus could not provide documentation on the
    original payment that resulted in a refund or subsequent payments that reversed
    the demand letter.

    Public Law 107-300, “Improper Payments Information Act of 2002,”
    November 26, 2002 and OMB Circular A-123 do not include reporting exceptions
    for errors identified by oversight Components such as DCAA or DCMA.
    Identifying and researching these actions would highlight the problems and focus
    additional management attention on determining causes for overpayments. If
    DFAS Columbus provides the cause to its customers, including procurement
    contracting officers, the customers can take action to correct internal control
    weaknesses and prevent similar situations that result in overpayments.

    The Titan Corporation refund illustrates that DFAS Columbus did not have
    adequate supporting documentation available to identify the cause of the
    collection when DFAS Columbus reported the refund as proper. We reviewed the
    documentation used by DFAS Columbus to determine whether the payment was
    reasonable and proper. We determined that the documentation was incomplete.
    Based on our request for additional information, DFAS Columbus contacted
    DCAA to obtain supporting documentation for the cause of the collection.

    DCAA was able to provide the DCMA contracting officer’s demand for payment
    that showed the cause of the error to be the contractor’s labor accounting system.
    The labor accounting system was inadequate, and the contractor did not document
    the actual time worked. This example demonstrates the need for DFAS personnel
    to coordinate with DCAA and DCMA personnel to identify similar types of
    payments with the goal of preventing them by identifying contractor accounting
    problems prior to payment.


Additional Research
    In response to the draft report, the OUSD(C)/CFO performed its own research and
    provided information that the Deputy Chief Financial Officer stated showed that
    20 refunds were the result of the normal contract administration process, and
    therefore, the refunds should not be categorized as improper payments. We
    reviewed the information and it did not show conclusively that the refunds were
    not improper payments. The documents provided to us did not match the refunds
    to the original payments. For the more substantial refunds, OUSD(C)/CFO and
    DFAS Columbus should trace the refund to the payment.



                                        9

     In November 2006, the OUSD(C)/CFO Acting Deputy Chief Financial Officer
     established a DoD Project Officer for Improper Payments and Recovery Auditing
     (IPRA) and IPRA working group to improve the methodologies for identifying
     and reporting improper payments. The goals of the DoD Project Officer is to
     review the DoD statistical methodologies and processes for capturing and
     reporting IPRA information to verify that DoD reporting is accurate, complete,
     and meets or exceeds the minimum OMB reporting requirements. Another goal
     of the DoD Project Officer is to establish and coordinate an ongoing IPRA
     working group, consisting of representatives from DoD Components, to assist in
     the review of the IPRA of their Components and help modify methodologies and
     processes as needed. OUSD(C)/CFO needs to coordinate with the working group
     and the DoD Project Officer to improve researching the cause of refunds and
     reducing problems that cause them.


Identifying an Accurate Baseline
     In August 2006, OMB added additional documentation requirements related to
     the identification of improper payments. Specifically, OMB requires that when
     an agency’s review of a payment is unable to discern whether a payment was
     proper because of insufficient or lack of documentation, the payment must be
     considered an error. Unless DoD improves its process of evaluating refunds from
     contractors, it should report them as improper payments. Because DFAS
     Columbus receives the refunds, it is in the best position to coordinate with other
     DoD activities to quickly determine the cause of the refunds and determine
     whether they are associated with improper payments. Unless the OUSD(C)/CFO
     and DFAS improve the DFAS evaluation and coordination process, DFAS
     Columbus will not be able to provide the causes for improper payments to its
     customers so that they can take corrective actions. DFAS needed to coordinate
     with procurement contracting officers, the DCAA, the DCMA, and other DoD
     Components to research contractor refunds to identify an accurate baseline of
     improper MOCAS payments.


Conclusion
     OUSD(C)/CFO and DFAS Columbus should consider reporting all refunds on
     MOCAS contracts as errors until definitive research shows that the refunds were
     the result of collections that did not involve contractor or administrative error.
     DFAS Columbus did not report at least one substantial improper payment because
     of insufficient research. OUSD(C)/CFO and DFAS Columbus personnel needed
     to improve review processes on contactor refunds and should use the IPRA
     working group to improve the existing process. The OUSD(C)/CFO also needs to
     monitor DoD Components actions to ensure that they determine a cause for each
     refund, develop solutions, and establish trend information to demonstrate progress
     in reducing improper payments associated with refunds.



                                         10 

Management Comments on the Finding and Audit Response
    Management Comments. The Deputy Chief Financial Officer, OUSD(C)/CFO
    provided comments based on a draft of the Finding (see the Management
    Comments section for the text). In the draft, we stated that $189.6 million of the
    $239.7 million of refunds should have been reported as resulting from improper
    payments. We modified the final report to state that none of the refunds we
    examined (valued at $239.7 million) were initially researched adequately,
    including two refunds that we subsequently determined were not the result of
    improper payments.
    In response to the draft, the Deputy CFO stated that $165.6 million out of the
    $189.6 million in payments that we identified in the draft report as improper
    payments were the result of adjustments on interim contract financing payments.
    He added that the payments were designed to provide contractors with payments
    in advance of contract deliveries, and these payments typically include some
    degree of estimation. He also stated that depending on the type of authorizing
    contract, the payments may be (1) made provisionally and subject to final contract
    audit and closeout, (2) based on payment schedules included in the contract, or
    (3) limited to an amount less than the final negotiated contract price until final
    deliveries are made and accepted by DoD. He stated that refunds of interim
    financing payments resulting from the administration and settlement of contracts
    and occurring subsequent to the DFAS entitlement and payment processes
    demonstrate that appropriate internal controls are functioning effectively.
    The Deputy Chief Financial Officer stated that he did not believe payments are
    improper when, at the time of the payment, they are correctly entitled and
    disbursed based on the contract terms, the applicable FAR, and the DFARS
    requirements. He stated that any interpretation to the contrary places DoD in the
    impossible position of determining whether to make an improper payment in
    accordance with the Improper Payments Information Act or not make a payment
    and violate the FAR and the terms of the underlying contract.
    The Deputy agreed with the intent of three recommendations that would require
    DFAS to coordinate with procurement contracting officers, DCAA, DCMA, and
    other DoD Components to research contractor refunds to identify reasons for
    refunds. He also stated that the OUSD(C)/CFO was working to improve the
    existing process and that the improved process would be monitored.
    Audit Response. We agree that routine contract adjustments on interim contract
    financing payments should not be reported as improper payments. However, the
    value of our sample items ($1 million to $34 million) was too substantial to be
    dismissed as routine contract adjustments when the limited supporting
    documentation showed that that the refunds were the result of contractor
    overbillings, contractor errors, or contract administration problems.

    The Deputy Chief Financial Officer stated that refunds may result from improper
    payments, but they may also be caused by other factors. We agree that refunds
    are not always the result of improper payments and should be reviewed on a
    case-by-case basis. However, sufficient documentation needs to accompany
    refunds to permit tracing the refunds to a payment. DFAS personnel were unable
    to identify the particular payments that caused the refunds and, as a result, we


                                        11

           could not review the payments to opine on the propriety of DoD actions at the
           time DoD made the payments.

           The Deputy Chief Financial Officer’s plan to improve the existing process and
           improve oversight satisfies the intent of our recommendations. We strongly
           believe that fully investigating the causes of refunds and accurately reporting the
           amounts that are caused by improper payments are imperative steps in monitoring
           and working to reduce the occurrence of improper payments in the Department.
           The Department needs to perform better research to identify the systemic
           problems that cause improper payments and identify and focus its attention on the
           weaknesses in its processes that are resulting in significant refunds. If the
           systemic problems are not identified, highlighted, and corrected, Defense
           contractors will continue to receive significant overpayments that could have been
           prevented.

Recommendations, Management Comments, and Audit
  Response
           Deleted and Renumbered Recommendations. As a result of management
           comments, we deleted the first two recommendations and renumbered the final
           three recommendations. We also deleted recommendations on reporting material
           internal control weaknesses and the high-risk categorization of the accounts
           payable functional area because the recommendations were reported in a prior
           audit report, 4 and management actions on those recommendations were ongoing.

           We recommend that the Office of the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer, the DoD Improper Payments and
           Recovery Auditing Project Officer, and the Improper Payments and
           Recovery Auditing working group in coordination with Defense Finance and
           Accounting Service:

                 1. Establish a process for Defense Finance and Accounting Service to
           coordinate with procurement contracting officers, the Defense Contract
           Audit Agency, the Defense Contract Management Agency, and other DoD
           Components to research contractor refunds to identify reasons for refunds.

           Management Comments. The Deputy Chief Financial Officer, OUSD(C)/CFO
           agreed with the intent of the recommendation. He stated that DFAS already has a
           process in place to identify the reasons for refunds and DFAS reported
           $216.8 million of improper payments identified through refunds for FYs 2005 and
           2006. OUSD(C)/CFO personnel are working with DCMA and DCAA to improve
           the quality of the refund data. Better data will assist DoD Components in
           assessing and improving payment controls. The Deputy Chief Financial Officer
           stated that because DCMA administers most cost-type contracts, contracting
           officers will be involved on a case-by-case basis.


4
    Report No. D-2005-100, “Identification and Reporting of DoD Erroneous Payments,” August 17, 2005.

                                                   12 

Audit Response. The Deputy Chief Financial Officer’s comments were
responsive to the intent of the recommendation.

     2. Determine whether the refunds were the result of improper
payments based on reasons identified through coordination with DoD
Components.

Management Comments. The Deputy Chief Financial Officer, OUSD(C)/CFO
agreed with the intent of the recommendation. As stated in the response to
Recommendation 1., he stated that DFAS currently has a process to identify the
reasons for the refunds. However, OUSD(C)/CFO is working with DCAA and
DCMA to enhance the process.

Audit Response. The Deputy Chief Financial Officer’s comments were
responsive to the intent of the recommendation.

       3. Monitor DoD Components actions to ensure that they determine a
cause for each refund, develop solutions, and establish trend information to
demonstrate progress in reducing improper payments associated with
refunds.

Management Comments. The Deputy Chief Financial Officer, OUSD(C)/CFO
partially concurred and stated that, in accordance with the Improper Payments
Information Act requirements, DoD will continue to focus on reducing improper
payments; but this is not limited to payments associated with refunds. The
Deputy Chief Financial Officer stated that in FY 2008, OUSD(C)/CFO will be
implementing a monthly financial performance metric for tracking and reducing
improper payments by program, which will include commercial (contract and
vendor) payments. This metric will demonstrate progress in reducing improper
payments Department-wide and allow management to closely monitor progress
and take prompt corrective actions as needed. He also stated that making
maximum use of the data gathered to determine improper payment causes,
developing appropriate solutions, and implementing improvements in controls
and procedures is inherent to achieving reductions in the improper payment
measurements.

Audit Response. The Deputy Chief Financial Officer’s comments were
responsive to the intent of the recommendation.




                                  13

Appendix A. Scope and Methodology 

    We conducted this performance audit in accordance with generally accepted
    government auditing standards. Those standards require that we plan and perform
    the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
    for our findings and conclusions based on our audit objectives. We believe that
    the evidence obtained provides a reasonable basis for our findings and
    conclusions based on our audit objectives.

    We assessed whether DoD complied with the requirements of the Public Law
    107-300, “Improper Payments Information Act of 2002,” November 26, 2002 as
    further defined by the OMB Circular A-123, Appendix C, “Requirements for
    Effective Measurement and Remediation of Improper Payments,”
    August 10, 2006. Specifically, we reviewed a judgmental sample of five FY 2005
    and 2006 contractor check refunds for $146.0 million reported as improper
    payments. The contractor check refunds we reviewed were originally paid
    through the DFAS Columbus MOCAS system.

    We also reviewed a judgmental sample of 23 contractor check refunds for
    $239.7 million not reported as improper payments. Furthermore, we
    judgmentally sampled refunds on the KBR, Inc. LOGCAP III contract of more
    than $1 million. We reviewed the contractor check refunds to determine whether
    they were improper payments and the cause of the improper payment. We
    worked with DFAS Columbus, DCAA, DCMA, and other DoD Components to
    identify the cause of the refund. We reviewed the contractor check refunds to
    determine whether DFAS Columbus reported the refund that was the result of an
    improper payment.

    We performed this audit from April 2006 through May 2007 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit. Instead, we relied on information gathered by DFAS
    Columbus management on improper payments and FYs 2005 and 2006 contractor
    check refunds originally paid through MOCAS. We did not perform a formal
    reliability assessment on the management information.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management and DoD Contract
    Management high-risk areas.


Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the 

    Department of Defense Inspector General (DoD IG) issued four reports on the 


                                        14 

    identification and reporting of improper payments. Unrestricted GAO reports can
    be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports.


GAO
    Report No. GAO-07-92, “Agencies’ Fiscal Year 2005 Reporting under the
    Improper Payments Information Act Remains Incomplete,” November 2006.

    Report No. GAO-02-749, “Coordinated Approach Needed to Address the
    Government’s Improper Payments Problems,” August 2002


DoD IG
    Report No. D-2006-094, “Improper Payments for Defense Fuels,” June 29, 2006

    Report No. D-2005-100, “Identification and Reporting of DoD Erroneous
    Payments,” August 17, 2005




                                      15

Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          16 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      17

Office of the Under Secretary of Defense/Chief
Financial Officer Comments


                       OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                      1100 DEFENSE P E N T A G O N
                                    W A S H I N G T O N , D C 20301-1100     OCT     9    2007




    COMPTROLLER


          M E M O R A N D U M FOR ASSISTANT INSPECTOR G E N E R A L AND DIRECTOR,
                                    DEFENSE FINANCIAL AUDITING SERVICE,
                                    OFFICE OF T H E INSPECTOR GENERAL,
                                    DEPARTMENT O F D E F E N S E

         SUBJECT:      Draft Audit Report on the "Identification and Reporting of Improper
                       Payments - Refunds from DoD Contractors," (Project Number D2006­
                       D000FI-0156.000)

                 This memorandum is in response to your request for comments on the audit
         recommendations contained in the subject draft audit report Upon review of the draft
         report, we partially concur with three recommendations and nonconcur with the
         remaining two recommendations Our detailed response to the report is outlined in
         Attachment 1

                 To address some fundamental assumptions in the report, we disagree with the
         DoD OIG on applying the definition of an improper payment, as set forth in Appendix C
         of the Office of Management and Budget (OMB) Circular A-123, "Management's
         Responsibility for Internal Control," to refunds Refunds may result from improper
         payments, but they may also be caused by other factors Determining whether a payment
         was improper must be based on a case-by-case review of the original payments, rather
         than the refund W e acknowledge that tracing refunds to original payments may aid in
         identifying improper payments, and we will continue to report improper payments
         identified in this manner However, insufficient documentation accompanying refunds,
         which precludes tracing the refunds to payments, does not deem the payments improper
         The definition of an improper payment provided in statute and in O M B guidance
         specifically addresses payments and does not include refunds

                Furthermore, recent O M B guidance indicated that agencies historically have not
        included payments related to contract adjustments in improper payment reporting The
        fact that the identified refunds relate to interim contract financing payments is a key
        omission in the draft audit report Interim contract financing payments are designed to
        provide contractors with payments in advance of contract deliveries, and these payments
        typically include some degree of estimation Depending on the type of authorizing
        contract, the payments may be (1) made provisionally and subject to final contract audit
        and closeout, (2) based on payment schedules included in the contract, or (3) limited to
        an amount less than the final negotiated contract price until final deliveries ate made and
        accepted by the Department Refunds of interim financing payments, resulting from the
        administration and settlement of contracts and occurring subsequent to the Defense




                                                        19 

Finance and Accounting Service entitlement and payment processes, demonstrate that
appropriate internal controls are functioning effectively. W e do not believe payments are
improper when, at the time of the payment, they are correctly entitled and disbursed
based upon the contract payment terms, the applicable Federal Acquisition Regulations
(FAR), and the Defense Federal Acquisition Regulations Supplement (DFARS)
requirements Any interpretation to the contrary places the Department in the impossible
position of determining whether to make an improper payment in accordance with the
Improper Payments Information Act or not make the payment and violate the FAR,
DFARS, and the underlying contract Accordingly, our review determined only one
refund, for $24 million, was likely the result of improper payments

       We appreciate the opportunity to respond to your request for comments on the
audit recommendations. My point of contact is Mr. Mike Weber. He may be reached by
telephone at 703-697-6149 or by email at michael.weber@osd mil




                                         James E. Short
                                         Deputy Chief Financial Officer


Attachments:
1 Response to Audit Recommendations
2 Analysis of Refunds and the Related Payments




                                              20
                                                                                                  Final Report
                                                                                                   References




            Department of Defense, Office of the Inspector General (DoD OIG) 

        Draft Report on the "Identification and Reporting of Improper Payments ­
                 Refunds from DoD Contractors" dated August 10, 2007 

                           Project No, D2006-D000JF-0156.000 



The DoD OIG recommends that the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the DoD Improper Payments and Recovery
Auditing Project Officer and Improper Payments and Recovery Auditing working group
in coordination with Defense Finance and Accounting Service:

R e c o m m e n d a t i o n 1: Report the accounts payable functional area as a high-risk area      Deleted
until the improper payments associated with refunds are fully identified and minimized.

O U S D ( C ) C o m m e n t s : Nonconcur The DoD OIG did not identify and provide specific
individual payments which the DoD OIG considered improperly entitled and paid
Instead, the report identified refunds which represented many payments over a period of
time Determining whether a payment was improper must be based on a case-by-case
review of the original payments, rather than the refund

We do not believe payments are improper when, at the time of the payment, they are
correctly entitled and disbursed based upon the contract payment terms, the applicable
Federal Acquisition Regulations (FAR), and the Defense FAR Supplement (DFARS)
requirements. Any interpretation to the contrary, places the Department in the impossible
position of determining whether to make an improper payment in accordance with the
Improper Payments Information Act or not make the payment and violate the FAR,
D F A R S , and the underlying contract. Furthermore, statements by the Government
Accountability Office (GAO) support our opinion:

   •	    In a 1999 report, AIMD-00 10, entitled "Financial Management - Increased 

         Attention Needed to Prevent Billions in Improper Payments," the G A O states, 

         ".. some overpayments, by their nature, are not considered improper payments, 

         such as routine contract price adjustments " 


   •	    In a 2006 report, GAO-07-92, entitled "Improper Payments - Agencies' Fiscal 

         Year 2005 Reporting under the Improper Payments Information Act Remains 

         Incomplete," the G A O states, "we agree with O M B that a payment that was made 

         because of a legal requirement to make the payment subject to subsequent 

         determinations that the payment is not due should not be included in an agency's 

         estimate of its improper payments because it does not meet the definition of an 

         improper payment under the act " 


W e reviewed the refunds the DoD OIG identified and determined that all but one related
to payments which were correct and in accordance with contract terms at the time they


                                                                      Attachment I: Page I of 3




                                                  21 

Final Report
 References




               were paid These could be classified in one or more of the following four contract-related
               categories: (1) costs paid provisionally and subsequently identified by others as
               unallowable, (2) contract financing payments, (3) price definitization or price
               adjustments, and (4) payments made due to a legal requirement to make the payment,
               subject to subsequent determinations that the payment was not due The Office of
               Management and Budget's position is that Federal agencies historically have not included
               such contract adjustments as improper payments Therefore, we do not agree with the
               DoD OIG determination that 21 ($189 6 million) of 23 ($239 7 million) judgmentally
               sampled refunds were the result of improper payments. Our analysis (at Attachment 2)
               identified only 1 refund, for $24 million, was likely the result of improper payments



Deleted        Recommendation 2: Report a material internal control weakness in the identification of
               improper payments for the accounts payable functional area as a result of the significant
               amount of funds refunded by Defense c o n t r a c t o r

               OUSD(C) Comments: Nonconcur          We do not concur based on the reasons stated in our
               response to Recommendation 1.


Renumbered     Recommendation 3 : Establish a process for Defense Finance and Accounting Service
as Recom¬      (DFAS) to coordinate with procurement contracting officers, the Defense Contract Audit
mendation 1.   Agency (DCAA), the Defense Contract Management Agency (DCMA), and other DoD
               Components to research contractor refunds to identify reasons for refunds

               OUSD(C) Comments: Partially concur We agree with the intent of the
               recommendation. However, DFAS already has a process in place to identify the reasons
               for refunds, through which DFAS identified and reported S2I6 8 million of improper
               payments identified through refunds for fiscal years 2005 and 2006 W e are working
               with DCMA and DCAA to improve the quality of the refund data to further its use in
               assessing and improving payment controls. Since DCMA administers most cost-type
               contracts, procuring contracting officers will be involved on a case-by-case basis.


Renumbered     Recommendation 4: Determine whether the refunds were the result of improper
as Recom¬      payments based on reasons identified through coordination with DoD Components
mendation 2.
               OUSD(C) Comments: Partially concur. We agree with the intent of the
               recommendation As stated in the response to Recommendation 3, DFAS currently has a
               process to identify the reasons for the refunds However, enhancements can be made in
               that process, and we are currently working with both DCAA and DCMA to bring those
               about




                                                                                Attachment 1: Page 2 of 3




                                                             22 

                                                                                               Final Report
                                                                                                References




Recommendation 5: Monitor DoD Components' actions to ensure that they determine a
                                                                                               Renumbered
cause for each refund, develop solutions, and establish trend information for use in
demonstrating progress in reducing improper payments associated with refunds
                                                                                               as Recom-
                                                                                               mendation 3.
OUSD(C) C o m m e n t s : Partially concur. In accordance with the Improper Payments
Information Act requirements, the Department will continue to focus on reducing
improper payments; but this is not limited to payments associated with refunds. In fiscal
year 2008, we are implementing a monthly financial performance metric for tracking and
reducing improper payments by program, which will include commercial (contract and
vendor) payments This metric will demonstrate our progress in reducing improper
payments Department-wide and allow management to closely monitor progress and take
prompt corrective actions as needed Making maximum use of the data gathered to
determine improper payment causes, developing appropriate solutions, and implementing
i m p r o v e m e n t in controls and procedures, is inherent in achieving reductions in the
improper payment measurements.




                                                                   Attachment 1: Page 3 of 3




                                               23
            ANALYSIS OF REFUNDS AND T H E R E L A T E D PAYMENTS


                              IMPROPER P A Y M E N T S
Payments associated with the following refund appear to have been improper payments:


Table 2. Item 4: Contract Administrative Error
B A E Systems                                                                    $23,983,615

Contract financing payments were made in the form of performance-based payments
(PBPs) in accordance with the terms of contract DAAE07-01-C-M016. The PBPs were
paid out of specific contract line item numbers (CLINs) and accounting classification
reference numbers. The contracting officer issued a modification changing the
deliverables from one CLIN to another The CLINs of the delivered items no longer
matched the CLINs of the previously paid PBPs, and thus the contractor was paid the full
amount of the delivered items, without reduction of previously paid PBPs The payments
causing this refund were "probably" improper payments within the meaning of the
Improper Payments Information Act of 2002 (IPIA)



                                      N O T IMPROPER P A Y M E N T S
Payments associated with the following refunds were for (1) costs paid provisionally and
subsequently identified as unallowable, (2) contract financing payments, (3) price
d e f i n i z a t i o n or price adjustments, or (4) payments made due to a legal requirement to
make the payment, subject to subsequent determinations that the payment was not due
The payments were correct at time they were made in accordance with contract terms
Therefore, they are not considered improper payments



Table 2, Item 1: Quarterly Limitation on Payments
McDonnell Air & Missile Systems                                                  S34,105,000

The Defense Finance and Accounting Service (DFAS) made contract financing payments
based upon the terms and conditions of contract N00019-99-C-1226. This refund of
those financing payments occurred as the result of the contractor complying with the
Incentive Price Revision-Firm Target clause (Federal Acquisition Regulation (FAR)
52 216-16) in that contract This clause requires the contractor to prepare a quarterly
limitation on payments statement as prescribed in FAR 52 216-16(g), and if on any
quarterly statement the amount under subdivision (g)( l)(iv) of the clause exceeds the sum
due the contractor as computed in accordance with subdivisions (g)(l)(i), (ii), and (iii) of
the clause, the contractor is to refund or credit the Government the amount of the excess
The objective of the quarterly limitation on payments statement is to keep negotiated
billing prices during contract performance in-line with expected final prices until they are
negotiated and settled This quarterly process allows for computed excess contract
financing payments to be recouped and excessive billing prices to be adjusted on a timely


                                                                      Attachment 2: Page 1 of 6




                                                 24 

           ANALYSIS O F REFUNDS A N D T H E R E L A T E D P A Y M E N T S


basis, when necessary. This refund was the result of a normal and very common contract
administration activity and was not issued in satisfaction of an improper payment in
accordance with the IPIA



Table 2. Item 3 : Task Order Billing
Kellogg Brown and Root (KBR) Inc                                                $27,908,679

DFAS made interim contract financing payments as required by the Allowable Cost and
Payment clause (FAR 52.216-7) contained in the contract DAAA09-02-D-0007
(LOGCAP III), Task Order 59. The contractor's requests for interim contract financing
payments were provisionally approved by the Defense Contract Audit Agency (DCAA)
under Defense Federal Acquisition Regulation Supplement (DFARS) 242 803(b)(i)(B)
At the time costs arc provisionally approved tor payment, subject to later audit, the
financing payment is correct By its very nature, however, provisional approval
recognizes that some of the underlying costs may be later adjusted, allocable to another
task order, or disallowed by the contracting officer. A payment of provisionally
approved costs is not an improper payment under IPIA when costs are later discovered to
be allocable to a different task order In this instance, the refund represented accrued
Defense Base Act insurance premiums that were initially billed on Task Order 59, but
were allocable and billed to the follow-on Task Order 89. The interim contract financing
payments made on both cost-type task orders (59 and 89) are subject to final audit and
closeout.



Table 2. Item 5: Contract Modification, Change in Line Item Billing
Bell Helicopter                                                                 $19,871,708

This is a refund of interim contract financing payments made in accordance with the
terms of contract N00019-00-C-0183. T h e refund was the result of subsequently issued
contract modifications requiring the contractor to effectively re-bill costs to Navy lines of
accounting (LOA), instead of Air Force LOA. These transactions occurred on the same
contract, and were accomplished by the use of two separate public vouchers (Voucher
094 and 095) dared the same day. One voucher credited the Air Force LOA and the other
billed the Navy LOA This unified transaction was not a flow of obligations between the
contractor and the Government, but was a realignment of prior disbursements to a
different LOA This refund is related to contract administration activities, and is not
related to a prior improper payment within the meaning of the IPIA




                                                                    Attachment 2: Page 2 of 6




                                                25 

              A N A L Y S I S O F R E F U N D S AND T H E R E L A T E D P A Y M E N T S


T a b l e 2, I t e m 6: T a s k O r d e r Billing
KBR Inc                                                                             $17,494,180

DFAS made interim contract financing payments as required by the Allowable Cost and
Payment clause (FAR 52 216-7) contained in the contract DAAA09-02-D-0007
( L O G C A P III), Task Order 36. The contractor's requests for interim contract financing
payments were provisionally approved by DCAA under DFARS 242 803(b)(i)(B) At
the time the costs are provisionally approved for payment, subject to later audit, the
financing payment is correct, although by its very nature, provisional approval recognizes
that some of the underlying costs may be later adjusted, allocable to another task order, or
disallowed by the contracting officer The refund resulted from a reconciliation
performed by the contractor on billed amounts {based on in-country accounting records)
to the contractor's official books of record for Task Order 36. The contractor claims it
under-billed these costs on another task order, Task Order 27 An interim contract
financing payment of provisionally approved costs is not an improper payment under
IPIA when costs are later discovered to be allocable to a different task order The interim
contract financing payments on both cost-type task orders (36 and 27) arc subject to final
audit and closeout



Table 2, Item 7: Contract Definitization
Oshkosh Truck Corporation                                                          $2,494,302

This refund of contract financing (performance-based) payments previously paid in
accordance with the terms in contract M67854-04-D-5016, Delivery Order 0005, resulted
from definitization of the contract. A definilization action is an agreement which
converts an undefinitized contract action to a definitive contract. An undefinitized
contract action is any contract action for which contract terms, specifications, or price is
not agreed to prior to commencement of performance. During the period prior to
definitization the contractor is entitled to interim payments as specified in the contract. If
the definitive price is less than the tentative agreement while the contract is undefinitized,
a refund may be due from the contractor to the Government. The original financing
payments, made in accordance with contract terms, are not improper payments under the
IPIA.



Table 2, Item 8: Contractor Cost T r a n s f e r s
Lockheed Martin                                                             $18,383,853

Eased upon a review of the underlying documentation associated with the refund, we
believe the refund amount is overstated by approximately $3 million This amount is
associated with the inclusion of contractor performed work during the billing period on
the same voucher as the refund. This work is not associated with events causing the


                                                                        Attachment 2: Page 3 of 6




                                                     26 

           ANALYSIS O F REFUNDS AND T H E RELATED PAYMENTS


refund, so we do not believe the $3 million should have been included in the cited refund
amount

DFAS made interim contract financing payments as required by the Allowable Cost and
Payment clause (FAR 52 216-7) contained in contract F33657-0l-C-2095 The
contractor's request for interim contract financing payments was provisionally approved
by DCAA under DFARS 242 803(b)(1)(C) At the time the costs arc provisionally
approved for payment, subject to later audit, the financing payment is correct, although
by its very nature, provisional approval recognizes that some of the underlying costs may
be later adjusted.

The refund occurred as a result of two cost transfers made by Lockheed Martin within
their accounting system, which adjusted the amount of interim financing payments
previously billed as compared to the amounts provisionally paid. The cost transfers
occurred subsequent to the proper payment of interim contract financing payments. An
interim contract financing payment of provisionally approved costs is not an improper
payment under IPIA when costs are later adjusted by the contractor



Table 2. Item 10: Advance Agreement on Qui Tam Litigation Costs
Northrop Grumman                                                                 $9,469,181

This refund resulted from the execution of a memorandum of agreement (MOA), dated
September 19, 2005, between the Government and the contractor regarding costs incurred
in defending a Qui Tam action. The associated payment closed out the litigation cost
issue that remained following the resolution of the Qui Tam complaint on March 1, 2005,
lor litigation costs incurred between 1992 and the date of the MOA FAR 31.205-47
states that the costs are unallowable if, as a result of the action, there is a finding of
liability. At the time the costs were provisionally paid, there was no finding of liability
Thus, the payment was proper, or provisionally allowed, under DFARS 242 803(b)(i)(C)
or the interim approval by DCAA under DFARS 242.803(b)(i)(B). Since the payments
were proper when made, they were not improper payments in accordance with IPIA



Table 2, Items 1 1 , 1 2 , 1 3 , 1 9 , and 20: Contract Definitization
KbR,                                    Inc                         Item 11      $6,465,319
                                                                    Item 12      $5,945,718
                                                                    Item 13      $4,416,715
                                                                    Item 19      $1,815,192
                                                                    Item20       $1,604,629

These refunds of interim contract financing payments, previously paid in accordance with
the terms of contract DAAA09-02-D-0007, resulted from the definitization of various


                                                                      Attachment 2: Page 4 of 6




                                                 27 

           ANALYSIS O F REFUNDS A N D THE R E L A T E D               PAYMENTS


undefinitized task orders issued under the contract. A definitization action is an
agreement which converts an undefinitied contract action to a definitive contract or
order. An undefinitized contract action is any contract action for which contract terms,
specifications, or price is not agreed to prior to commencement of performance. During
the period prior to definitization, the contractor is entitled to reimbursement of costs as
specified in the contract. If the definitive price is less than the tentative agreement while
the contract is undefinitized, a refund may be due from the contractor to the Government.
The original interim contract financing payments were made in accordance with contract
terms and are not improper payments under the IPIA T h e interim contract financing
payments on these task orders are subject to final audit and closeout


Table 2, Item 14: Withhold of Payments Due to Timekeeping System Deficiencies
The Titan Corporation                                              $3,236,683

This refund is for interim contract financing interim payments paid to the contractor in
accordance with the Allowable Cost and Payment Clause (FAR 52 216-7) contained in
contract DASDC01-99-D-0001. The refund resulted from a demand for payment issued
by the Administrative Contracting Officer (ACO) as a payment withhold to protect the
Government's interest until an internal control deficiency was satisfactorily corrected
After the contractor implemented corrective actions the A C O allowed the contractor to
re-bill for the costs, and the contractor was paid back in January 2005

The original contract financing interim payments made under this contract were
provisionally approved by DCAA under DFARS 242 803 At the time the costs ate
provisionally approved for payment, subject to later audit, the financing payment is
correct, although by its very nature, provisional approval recognizes that some of the
underlying costs may be later adjusted or disallowed by the contracting officer In this
case, the interim contract financing payments previously made were retrieved by the
Government and temporarily held until the contractor satisfied the A C O that deficiencies
were corrected. An interim contract financing payment of provisionally approved costs is
not an improper payment under IPIA, when costs are later held back to protect the
Government's interest and then subsequently returned to the contractor. These interim
financing payments are subject to a final audit and closeout




                                                                    Attachment 2: Page 5 of 6




                                                28 

           A N A L Y S I S O F REFUNDS AND T H E RELATED P A Y M E N T S


T a b l e 2, Items 15, 16, 17, 18, 21, 22, a n d 23; Cost Adjustments
KBR                                 Inc                           Item 15      $2,755,290
                                                                  Item 16      $2,262,158
                                                                  Item 17      $1,905,081
                                                                  Item 18      $1,876,759
                                                                  Item 21      $1,386,447
                                                                  Item 22      $1,158,354
                                                                  Item23       $1,075,081

These amounts are refunds of interim contract financing payments previously paid in
accordance with the terms of contract DAAA09-02-D-0007 DFAS made the interim
contract financing payments as required by the Allowable Cost and Payment clause (FAR
52 216-7) contained in the contract. The contractor's request for interim contract
financing payments were provisionally approved by DCAA under DFARS
242 803(b)(i)(B) At the time the costs are provisionally approved for payment, subject
to later audit, the financing payment is correct. By its very nature, however, provisional
approval recognizes that some of the underlying costs may be later adjusted, allocable to
other task orders, or disallowed by the contacting officer These interim contract
financing payments, based on provisionally approved costs in accordance with contract
terms, are not improper payments under IPIA The interim contract financing payments
on these task orders are subject to final audit and closeout




                                                                    Attachmenr 2: Page 6 of 6




                                                29
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Curt W. Malthouse
William W. Lemmon
Ann Thompson
Karen M. Bennett




                                   31 

